JULY 29, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




NASA’S PROGRESS IN ADOPTING CLOUD-COMPUTING
               TECHNOLOGIES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-021 (ASSIGNMENT NO. A-12-022-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CIO          Chief Information Officer
CSSO         Computer Services Service Center
FedRAMP      Federal Risk and Authorization Management Program
GSA          General Services Administration
IT           Information Technology
JPL          Jet Propulsion Laboratory
NIST         National Institute for Standards and Technology
NSSC         National Shared Service Center
OCIO         Office of Chief Information Officer
OMB          Office of Management and Budget


                                                                 REPORT NO. IG-13-021
JULY 29, 2013




                                                                                          OVERVIEW

          NASA’S PROGRESS IN ADOPTING CLOUD-COMPUTING
                         TECHNOLOGIES

                                                                                            The Issue

  NASA spends about $1.5 billion annually on its portfolio of information technology (IT)
  assets, which includes more than 550 information systems that control spacecraft, collect
  and process scientific data, provide security for IT infrastructure, and enable Agency
  personnel to collaborate with colleagues around the world. In addition, hundreds of
  thousands of individuals, including NASA employees, contractors, members of
  academia, and the general public, use these IT systems daily.

  The adoption of cloud-computing technologies has the potential to improve IT service
  delivery and reduce the costs associated with managing NASA’s diverse IT portfolio.
  Specifically, cloud computing offers the potential for significant cost savings through
  faster deployment of computing resources, a decreased need to buy hardware or build
  data centers, and enhanced collaboration capabilities.

  To accelerate the Federal Government’s use of cloud-computing strategies, the Office of
  Management and Budget (OMB) requires agencies to adopt a “Cloud First” policy when
  contemplating IT purchases and evaluate secure, reliable, and cost-effective cloud-
  computing alternatives when making new IT investments.1 In addition, OMB required
  agencies to move one existing IT service to the cloud by December 2011 and two more
  by June 2012.

  To help Federal agencies meet Cloud First requirements, the General Services
  Administration, in collaboration with several other agencies, established the Federal Risk
  Authorization Management Program (FedRAMP). FedRAMP helps agencies adopt
  cloud-computing technologies by (1) ensuring that cloud providers have adequate IT
  security, (2) eliminating duplication of effort and reducing risk management costs, and
  (3) enabling rapid and cost-effective purchasing of cloud-computing services. By June
  2014, agencies are required to utilize only FedRAMP-approved cloud service providers.

  When transitioning to a cloud-computing model, agencies may adopt a private cloud
  strategy in which they operate their own data centers or purchase cloud services from
  public providers like Amazon or Microsoft. While the private cloud alternative enables
  agencies to manage their critical IT services and control access to sensitive data directly,

  1
      Office of the U.S. Federal Chief Information Officer, “25 Point Implementation Plan to Reform Federal
      Information Technology Management,” December 2010.



REPORT NO. IG-13-021
                                                                                         OVERVIEW



     these benefits come at the high cost of owning and operating data centers. Conversely,
     the public cloud alternative frees organizations from the expense of data center ownership
     but requires that they effectively manage contractor performance to ensure key business
     and IT security requirements are met.

     NASA was a pioneer in cloud computing having established its own private cloud-
     computing data center called Nebula in 2009 at the Ames Research Center (Ames).
     Nebula provided high-capacity computing and data storage services to NASA Centers,
     Mission Directorates, and external customers. In 2012, NASA shut down Nebula based
     on the results of a 5-month test that benchmarked Nebula’s capabilities against those of
     Amazon and Microsoft. The test found that public clouds were more reliable and cost
     effective and offered much greater computing capacity and better IT support services
     than Nebula.

     Effectively managing the delivery of public cloud-computing services requires agencies
     to develop contracts that address business and security risks as well as properly defining
     and providing a mechanism to monitor agency and cloud provider responsibilities. In
     addition, agencies must have strong IT governance practices in place, including
     organizational control of and oversight over policies, procedures, and standards for IT
     service acquisition and for monitoring the use of IT services. Because of the wide
     availability and ease of purchasing services from public cloud providers, a lack of
     organizational control over the acquisition of these services can create problems. For
     example, if cloud-computing services are acquired without proper approvals and
     oversight, vulnerable systems and sensitive information may be placed in the cloud
     environment, legal and privacy requirements may go unmet, and costs may quickly
     accrue to unacceptable levels.

     Our overall audit objective was to evaluate the efficacy of NASA’s efforts to adopt
     cloud-computing technologies. To do this we evaluated whether NASA had
     implemented

        an Agency-wide governance model with processes to manage life-cycle activities for
         transitioning to a cloud-computing model for delivery of IT services and

        practices to evaluate security and risks within the cloud-computing model and
         implement appropriate control mechanisms that reduce these risks to acceptable
         levels.

     Details of the audit’s scope and methodology can be found in Appendix A.




ii                                                                           REPORT NO. IG-13-021
OVERVIEW



                                                                                                   Results

  We found that weaknesses in NASA’s IT governance and risk management practices
  have impeded the Agency from fully realizing the benefits of cloud computing and
  potentially put NASA systems and data stored in the cloud at risk. For example, several
  NASA Centers moved Agency systems and data into public clouds without the
  knowledge or consent of the Agency’s Office of the Chief Information Officer (OCIO).
  Moreover, on five occasions, NASA acquired cloud-computing services using contracts
  that failed to fully address the business and IT security risks unique to the cloud
  environment. Finally, one of the two moderate-impact systems NASA moved to a public
  cloud operated for 2 years without authorization, a security or contingency plan, or a test
  of the system’s security controls.2 This occurred because the Agency OCIO lacked
  proper oversight authority, was slow to establish a contract that mitigated risks unique to
  cloud computing, and did not implement measures to ensure cloud providers met Agency
  IT security requirements.

  In December 2012, the Agency OCIO developed a contract for acquiring services from
  public cloud providers that addresses key business and IT security risks and meets
  FedRAMP requirements. However, the Agency does not currently require that Centers
  use the contract when acquiring cloud services or incorporate similar terms in the
  contract they use. Finally, we found that NASA satisfied OMB’s requirement to move
  several existing IT services to the cloud by June 2012.

  At the time of our audit, NASA spent less than 1 percent (about $10 million) of its
  $1.5 billion annual IT budget on cloud computing. However, NASA projects that within
  5 years up to 75 percent of new IT programs could begin in the cloud and nearly
  100 percent of the Agency’s public data could be moved to the cloud. Moreover, as
  legacy systems are modernized, up to 40 percent of them could be moved to the cloud.
  As NASA moves more of its systems and data to the cloud, it is imperative that the
  Agency strengthen its governance and risk management practices to safeguard its data
  while effectively spending its IT funds.

  NASA’s Governance of Its Cloud-Computing Efforts Needs Strengthening. Having
  an enterprise-wide inventory of cloud-computing services and providers is a best practice
  and helps organizations ensure they do not use unapproved or unsecured services. We
  found that the Agency OCIO was not aware of all the cloud services NASA organizations
  had acquired or which service providers they used. In addition, only 3 of 15 Center and
  Mission Directorate Chief Information Officers we surveyed stated that coordination with
  the Agency OCIO was necessary before moving NASA systems and data to public
  clouds. This occurred because NASA did not effectively communicate to its Centers
  their responsibilities for coordinating with the Agency OCIO when acquiring cloud-
  2
      According to the National Institute of Standards and Technology, in a moderate-impact system, the loss
      of confidentiality, integrity, or availability could have serious adverse effects on an organization’s
      operations, assets, or individuals. In a high-impact system, such a loss could be expected to have severe
      or catastrophic effects.



REPORT NO. IG-13-021                                                                                              iii
                                                                                         OVERVIEW



     computing services. We also found that the Agency OCIO was slow to establish an
     enterprise-wide cloud-computing strategy or process for evaluating which NASA systems
     and data can be economically and securely stored in a public cloud. Moving systems and
     data into a public cloud without first developing such a plan increases the risk that public
     funds may be misspent and puts information resources at risk of compromise.

     NASA’s Risk Management Practices for Acquiring and Securing Public Cloud-
     Computing Services Were Ineffective. Assessing and managing risk when putting a
     Federal agency’s systems and data into a public cloud poses a challenge because the
     computing environment is under the control of the cloud provider rather than the agency.
     Thus, effective risk mitigation requires developing contracts that address how contractor
     performance will be managed and how Federal privacy, IT security, and record
     management requirements will be met. We reviewed five NASA contracts for the
     acquisition of cloud-computing services and found that none came close to meeting
     recommended best practices for ensuring data security. Rather, in four cases NASA
     organizations accepted the cloud providers’ standard contracts that did not impose
     performance metrics or address Federal privacy, IT security, or record management
     requirements. For the fifth contract, NASA developed its own contract with a third party
     IT services firm to ensure that Federal IT security requirements were met. However, we
     found that the negotiated contract also failed to include best practices for ensuring data
     security or for effectively managing contractor performance. As a result, the NASA
     systems and data covered by these five contracts are at an increased risk of compromise.

     One of NASA’s Two Moderate-Impact Cloud Services Failed to Meet Key IT
     Security Requirements. We reviewed system security and contingency plans and
     annual security control tests associated with the two moderate-impact cloud services
     NASA has deployed to public clouds to determine whether they met Federal and Agency
     IT security requirements. We found that the cloud service used to deliver Internet
     content for more than 100 NASA internal and public-facing websites had been operating
     for more than 2 years without written authorization or system security or contingency
     plans. More troubling, the required annual test of the service’s security controls had not
     been performed to determine whether the controls were implemented correctly, operating
     as intended, and producing the desired result of securing the cloud service and its data. A
     breach of this moderate-impact cloud service could result in a serious disruption to
     NASA operations.

     NASA’s West Prime Contract Complies with FedRAMP Standards but Agency
     Organizations Are Not Required to Leverage this Contract to Obtain Cloud
     Services. In December 2012, the Agency OCIO entered into an IT services contract with
     InfoZen, Inc. to address the business and IT security risks unique to public cloud-
     computing environments (WestPrime contract). We found that this contract adequately
     outlines the respective roles and responsibilities of the Agency and cloud service
     providers and contains standards governing how contractor performance will be
     measured, reported, and enforced. Furthermore, the contract addresses Federal privacy,
     data retention, and destruction requirements as well as incident detection and handling



iv                                                                           REPORT NO. IG-13-021
OVERVIEW



  practices. However, NASA has not mandated that Centers use the WestPrime contract
  when acquiring cloud services or incorporate similar terms in the contract they use.

                                                              Management Action

  While the adoption of cloud-computing technologies at NASA has the potential to
  improve IT service delivery, enhance collaboration, and reduce costs associated with
  managing the Agency’s diverse portfolio of IT assets, fully realizing these benefits will
  require strengthening the Agency’s IT governance and risk management practices.
  Accordingly, we recommend that NASA’s Chief Information Officer (CIO) establish a
  cloud-computing program management office authorized to promulgate an Agency
  cloud-computing strategy; define related standards; and approve, coordinate, and oversee
  Agency-wide acquisition and deployment of cloud-computing services. In addition, we
  recommend the Agency CIO direct all Center and Mission Directorate CIOs to review
  FedRAMP policies and take actions necessary to meet policy requirements, require
  NASA organizations to use WestPrime or a contract with similar FedRAMP-compliant
  terms when acquiring cloud services, and establish an oversight function to ensure that
  moderate- and high-impact NASA systems and data are not moved to public clouds
  unless Federal and Agency IT security requirements are met. Finally, to remedy IT
  security deficiencies associated with the moderate-impact cloud service currently
  operating without authorization, we recommend that the system owner direct the service
  provider to immediately develop system and contingency plans that comply with
  National Institute of Standards and Technology standards and perform a test of the
  system’s security controls.

  In response to a draft of this report, NASA’s CIO concurred with our recommendations
  and proposed corrective actions, subject to the availability of funds, to improve NASA’s
  IT governance and risk management practices. We consider the Agency CIO’s planned
  actions responsive and we will close the recommendations upon verification that the
  Agency has completed them. Management’s response is reprinted in Appendix B.




REPORT NO. IG-13-021                                                                          v
JULY 29, 2013




                                                        CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 8

  RESULTS
      NASA Needs to Improve Its IT Governance and Risk
        Management Practices to Fully Realize the Benefits of
        Cloud Computing ___________________________________ 9

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls _____________________________ 20
      Prior Coverage _______________________________________ 21

  APPENDIX B
      Management Comments _______________________________ 22

  APPENDIX C
      Report Distribution ___________________________________ 26




REPORT NO. IG-13-021
JULY 29, 2013




                                                                       INTRODUCTION


Background

  According to the National Institute of Standards and Technology (NIST), cloud
  computing is a model for enabling convenient, on-demand network access to a shared
  pool of configurable computing resources, such as computer servers, storage, software
  applications, and web services, that can be provisioned and released with minimal
  management effort or service provider interactions. In other words, in a cloud
  environment, information technology (IT) resources are available to users as needed
  using a pay-as-you-go business model.

  NASA uses cloud computing to accommodate a number of functions such as large-scale
  computational services to support the Agency’s science programs and storage of large
  data sets associated with high-resolution mapping of planetary surfaces, as well as for
  more routine services like website hosting and document storage. In contrast to the
  traditional data center model that requires a significant initial investment in IT hardware
  and does not support automatic provisioning of IT resources, cloud computing allows
  NASA scientists and engineers to use only the resources needed to complete a particular
  project or function and to release those resources for use by others when that need ends.
  Consequently, cloud computing offers the potential for significant cost savings through
  more efficient utilization of computing resources.

  Cloud-computing environments share five essential characteristics.

         On-demand self-service: A consumer can unilaterally and automatically
          provision computing resources such as processing, data storage, and network
          bandwidth.

         Broad network access: Computing resources are available over the Internet or
          internal networks and accessed through web browsers on a variety of devices,
          including smart phones, tablets, laptops, and workstations.

         Resource pooling: Computing resources are pooled to serve multiple consumers.
          Resources may be assigned and reassigned according to consumer demand and
          the consumer typically has no control over or knowledge of the location of the
          provided resources.

         Rapid elasticity: Resources can be provisioned elastically and released rapidly to
          scale up or down commensurate with demand so that computer processing, data
          storage, and network bandwidth appear unlimited to the consumer.




REPORT NO. IG-13-021                                                                            1
                                                                                    INTRODUCTION



          Measured service: Cloud systems automatically control and optimize resource
           use through a metering technology matched to the resource consumed. Thus,
           resource usage can be monitored, controlled, and reported providing transparency
           over the type and amount of services used.

    In addition, cloud-computing operations generally utilize three service and four
    deployment models.

    Service Models

          Infrastructure as a Service: Capability to provision computer processing, data
           storage, and network bandwidth to enable the customer to deploy and run
           software, including operating systems and applications.

          Platform as a Service: Capability to deploy onto the cloud infrastructure
           customer-created or -acquired applications created using programming languages
           and tools supported by the provider.

          Software as a Service: Capability to use the provider’s applications that run on
           the cloud infrastructure and are accessible to the client using an interface such as a
           web browser for e-mail.

    Deployment Models

          Private Cloud:

            operated solely for an organization

            managed by the organization or a third party

            may exist on or off organization’s premises

          Public Cloud:

            made available to the general public or a large industry group

            owned by an organization that sells cloud services, such as Amazon,
             Microsoft, or Google

          Community Cloud:

            shared by several organizations

            supports a specific community with a shared mission or interest

            managed by one of the organizations or a third party


2                                                                            REPORT NO. IG-13-021
INTRODUCTION



             may reside on or off the organizations’ premises

           Hybrid Cloud:

             composed of two or more private, community, or public clouds that remain
              unique entities but are bound together by standardized or proprietary
              technology that enables data and application portability (e.g., cloud bursting
              for load balancing between clouds)3

  Nebula: NASA’s Private Cloud-Computing Initiative. NASA was a pioneer in the
  development of private cloud-computing technologies. In 2009, the Agency established
  Nebula, a private cloud at the Ames Research Center (Ames). Until it was
  decommissioned in April 2012, Nebula provided computation and storage services to
  73 NASA projects and fee-based IT services to the General Services Administration
  (GSA) and Microsoft.4 Most Nebula projects were managed by Ames or the Goddard
  Space Flight Center (Goddard) and conducted as tests to assess the performance and
  suitability of storing scientific and business data in a cloud environment.

  Nebula was housed at Ames in a standard sized shipping container (figure 1). As
  configured, this shipping container could accommodate approximately 15,000 central
  processing units or up to 15 petabytes of data.5 For comparison, a contemporary public
  cloud-computing data center contains up to 376,000 central processing unit cores or more
  than 25 times the computer processing capacity of Nebula (figure 2).




  3
      Cloud bursting is when a computer system in an organization’s data center accesses additional resources
      from a public cloud to meet a surge in user demand.
  4
      Among other activities, Nebula hosted GSA’s “USASpending.gov” websites.
  5
      One petabyte is equal to 1 million billion bytes.



REPORT NO. IG-13-021                                                                                            3
                                                                              INTRODUCTION



                      Figure 1: Nebula: NASA’s Cloud-Computing Data Center




    Source: NASA.




                          Figure 2: Amazon.com Cloud-Computing Data Center




    Source: Amazon.com.




4                                                                        REPORT NO. IG-13-021
INTRODUCTION



  NASA Partners with Private Sector and Distributes Free Software for Managing
  Private Clouds. In July 2010, NASA and Rackspace, a publicly held, cloud-computing
  company, launched OpenStack – an open-source software project whose goal is to
  provide a free alternative to buying services from public cloud-computing providers or
  paying expensive license fees for commercial cloud software.6 OpenStack provides an
  Infrastructure as a Service capability by combining two technologies: compute, a NASA
  technology that provisions virtual machines at massive scale, and object storage, a
  Rackspace technology that reliably stores billions of objects distributed across standard
  hardware.7 As part of the OpenStack project, NASA and Rackspace waived their
  intellectual property rights and released the software under an Apache 2.0 or “open-
  source” software license that allows anyone to use, modify, and redistribute the software
  freely.8 NASA’s then Chief Technology Officer believed that releasing Agency software
  for development by the public would increase product quality, reduce development costs,
  and remove barriers to public-private collaboration. More than 150 companies have
  joined the OpenStack project, including Intel, IBM, Dell, Hewlett-Packard, and Yahoo.
  The OpenStack community operates around a 6-month software release cycle with
  frequent development milestones. Since July 2010, the community has issued seven
  major releases of the OpenStack software program.

  NASA Conducts Assessment of Nebula and Finds that Public Clouds Are More
  Reliable and Cost Effective. From July to November 2011, the Science Mission
  Directorate benchmarked Nebula’s cloud-computing capabilities against those of
  Amazon and Microsoft. The objective was to determine which service offered the most
  stable and cost effective cloud-computing platform with sufficient scale and support
  services to meet the computational needs of NASA’s engineering and science
  communities.9 The tests found that the public clouds had matured to be more reliable and
  cost effective and offered much greater capacity and better IT support than Nebula.
  Thus, after investing $19.7 million, NASA suspended funding for Nebula in 2012 and
  shifted its cloud strategy to the purchase of cloud services from public providers.
  According to the Agency OCIO, NASA repurposed Nebula’s computer hardware to meet
  other computing needs at the Agency and the cloud-computing skills developed by
  NASA staff during the Nebula project have aided the Agency’s adoption of public cloud
  services.

  NASA’s Use of Public Cloud-Computing Services. We surveyed all NASA Centers,
  Mission Directorates, Headquarters, and the NASA Shared Services Center (NSSC) to
  develop an Agency-wide inventory of public cloud services used at NASA. As of August

  6
      With open-source software, the copyright holder makes the source code available free of charge and
      provides the rights to study, change, and distribute the software to anyone and for any purpose.
  7
      A virtual machine is a software implementation of a computer that executes programs like a physical
      computer.
  8
      Apache 2.0 is the most widely used type of open-source software license.
  9
      The tests focused on computer processing capabilities and did not assess the data storage services of the
      participants.



REPORT NO. IG-13-021                                                                                              5
                                                                                                   INTRODUCTION



    2012, Headquarters, the Jet Propulsion Laboratory (JPL), Johnson Space Center
    (Johnson), Marshall Space Flight Center (Marshall), and the NSSC were purchasing
    cloud-computing services either directly from public cloud providers or through cloud
    brokers using either existing contracts or, for services costing less than $3,000, with a
    NASA purchase card.10 In addition, two other Centers are planning to acquire cloud
    services in the future. The types of cloud services acquired include website hosting,
    computation, and data storage. For example NASA’s main public website
    (www.nasa.gov), which receives more than 140 million visits per year, is hosted by a
    public cloud (figure 3).

                                    Figure 3: NASA’s Public Internet Portal




    Source: NASA portal at www.nasa.gov.

    Office of Chief Information Officer. As part of its effort to implement Agency-wide web
    services, NASA’s OCIO entered into a contract with eTouch Federal Systems (eTouch).
    Over time, NASA revised this contract to require eTouch to provide enhanced IT security
    measures to meet Federal IT security requirements. These services include incident
    detection, contingency planning, and testing of cloud providers’ security controls.
    eTouch has worked primarily with the Agency OCIO; however, other NASA
    organizations may purchase eTouch’s IT services for their own projects.

    10
         Brokers are parties that provide services to cloud consumers, such as enhanced security, identity
         management, and performance reporting, that are typically not included in the cloud provider’s service
         contract.



6                                                                                          REPORT NO. IG-13-021
INTRODUCTION



  Until December 2012, eTouch managed the NASA Portal, which provides a secure
  application and hosting environment for Agency applications, content, and utilities. The
  NASA Portal has two parts: an internal portal for applications accessible only to internal
  NASA users and the external portal accessible to the public and NASA partners. Overall,
  the NASA Portal includes approximately 140 websites. In December 2012, NASA
  awarded management of its portal to InfoZen, a Maryland-based IT services firm. The
  total cost of InfoZen’s 5-year contract to provide NASA cloud-computing services is
  $40 million.

  Jet Propulsion Laboratory. JPL uses Amazon to host its “Be a Martian” educational
  website (http://beamartian.jpl.nasa.gov/welcome), which enables individuals to establish
  an account as a “Martian citizen” and explore the planet. JPL also uses cloud services to
  provide storage and increased computing capacity to its IT group.

  Johnson Space Center. Johnson is using public cloud technology to host an IT
  innovation site that enables NASA employees to collaborate on IT issues such as
  improving Center practices for software upgrades. In addition, Johnson uses a public
  cloud to provide video production and editing for broadcasting NASA activities to the
  public, such as the day-to-day activities on the International Space Station. Johnson’s
  Information Resources Directorate also plans to conduct two small, short-term projects to
  validate cost models, technical approach, and performance of cloud-based services. One
  pilot will move a noncritical internal application to the cloud and the second will test the
  cloud as a storage system for data backups.

  Marshall Space Flight Center. Marshall is utilizing the cloud for a variety of mission-
  related services involving experiments for the International Space Station; environmental
  monitoring, impact, and response data; and hosting a website relating to the design,
  manufacture, and operation of more reliable and cost-effective spacecraft.

  NASA Shared Services Center. NSSC provides financial management, human resources,
  IT, and procurement services to NASA employees. NSSC contracted with a cloud
  service provider to provide a suite of applications for employees to find information on a
  website rather than contacting NSSC’s call center. By using the cloud service provider,
  NSSC is able to reduce call center costs by increasing customer’s use of its websites.

  NASA Continues to Invest in Private Cloud-Computing Initiatives. In July 2012,
  NASA awarded a $1.5 million contract for a containerized cloud-computing data center
  at Goddard. This private cloud provides computing and storage capabilities for the
  Agency’s Science Mission Directorate.

  “Cloud First” and Federal Risk and Authorization Management Program
  (FedRAMP). As part of its “Cloud First” initiative, the Office of Management and
  Budget (OMB) requires agencies to evaluate secure, reliable, and cost-effective cloud-
  computing alternatives when making new IT investments. In addition, agencies were
  required to move one existing IT service to the cloud by December 2011 and two
  additional services to the cloud by June 2012.


REPORT NO. IG-13-021                                                                             7
                                                                                   INTRODUCTION



    FedRAMP is a government wide cloud-computing program designed to help agencies
    meet the requirements of OMB’s Cloud First initiative. FedRAMP was developed in
    collaboration with NIST, GSA, and the Departments of Defense and Homeland Security.
    There are five major participants in the FedRAMP process:

          Federal agency customer: any Federal agency that has a requirement for cloud
           technology.

          Cloud service provider: a private (e.g., Amazon, Microsoft, etc.) or public (e.g., a
           Federal agency offering services to other federal agencies) entity willing and able
           to fulfill customer requirements.

          Joint Authorization Board: a panel composed of representatives from GSA and
           the Departments of Defense and Homeland Security that reviews the security
           package submitted by the cloud service provider and grants the service provider
           provisional authority to operate.

          Third party assessor: an entity such as a public accounting firm that validates the
           quality and compliance of the cloud service provider’s security program.

          FedRAMP Program Management Office: a GSA group that provides operational
           management of the FedRAMP process and ensures effective communication
           among all stakeholders.

    FedRAMP helps agencies adopt cloud-computing technologies by (1) ensuring offered
    services have adequate IT security, (2) eliminating duplication of effort and reducing risk
    management costs, and (3) enabling rapid and cost-effective purchase of services.
    Beginning June 2014, Federal agencies may only obtain cloud-computing services from
    providers that have been authorized through the FedRAMP process.

    Objectives

    Our overall audit objective was to evaluate the efficacy of NASA’s efforts to adopt
    cloud-computing technologies. To do this, we evaluated whether NASA had
    implemented

          an Agency-wide governance model with processes to manage life-cycle activities
           for transitioning to a cloud-computing model for delivery of IT services and

          practices to evaluate IT security risks within the cloud-computing model and
           appropriate control mechanisms for reducing identified risks.

    See Appendix A for details of the audit’s scope and methodology, our review of internal
    controls, and a list of prior coverage.




8                                                                           REPORT NO. IG-13-021
RESULTS




                          NASA NEEDS TO IMPROVE ITS IT GOVERNANCE
                                AND RISK MANAGEMENT PRACTICES TO
                               FULLY REALIZE THE BENEFITS OF CLOUD
                                                        COMPUTING

             We found that weaknesses in NASA’s IT governance and risk management practices
             impeded the Agency from fully realizing the benefits of cloud computing and
             potentially placed at risk its information stored in the cloud. For example, Centers
             moved Agency systems and data into public clouds without the knowledge or
             approval of NASA’s OCIO. Moreover, on five occasions NASA acquired cloud-
             computing services using contracts that failed to address or mitigate key business
             and IT security risks. In addition, one of the two moderate-impact systems NASA
             moved to the public cloud operated for years without authorization, security or
             contingency plans, or a test of the system’s security controls. This occurred because
             the Agency OCIO lacked proper oversight authority, was slow to establish a contract
             that mitigated risks unique to cloud computing, and did not implement measures to
             ensure cloud providers met IT security requirements before putting Agency systems
             and data into public clouds. In December 2012, NASA signed a contract with a
             vendor to acquire cloud-computing services that address key business and IT security
             risks. However, the Agency currently does not require NASA Centers, to utilize this
             contract or to incorporate similar FedRAMP-compliant terms in contracts when
             acquiring cloud services. We also found that NASA satisfied the requirement of
             OMB’s Cloud-First initiative by moving several existing IT services from data
             centers to the cloud.

             NASA projects that within 5 years up to 75 percent of new IT programs will begin in
             the cloud and nearly 100 percent of the Agency’s public data could be stored in the
             cloud. Moreover, as legacy systems are modernized, up to 40 percent of them could
             be moved to the cloud. As the Agency moves more of its systems and data to the
             cloud, it is imperative that NASA strengthen its governance and risk management
             practices to safeguard its data while effectively spending its IT funds.


NASA’s Governance of Cloud Computing Needs Strengthening

  According to ISACA, having an enterprise-wide inventory of cloud-computing services
  and providers is a best practice that helps organizations ensure they do not use
  unapproved or unsecured services.11 In addition, NASA will need a complete inventory

  11
       Previously known as the Information Systems Audit and Control Association, ISACA now goes by its
       acronym only to reflect the broad range of IT governance professionals it serves. ISACA is a global
       organization engaged in the development and adoption of widely accepted, industry-leading practices for
       information systems.



REPORT NO. IG-13-021                                                                                             9
                                                                                           RESULTS



     of its cloud service providers to ensure it meets GSA’s requirement that Federal agencies
     utilize only FedRAMP-approved providers by June 2014.

     As part of our audit, we asked the Agency OCIO for a NASA-wide inventory of deployed
     cloud services and associated service providers. We also surveyed the NASA Centers,
     Mission Directorates, Headquarters, and NSSC to identify their deployed cloud services
     and related service providers. We found that the Agency OCIO was unaware of two of
     the eight companies providing cloud services to NASA organizations and that two
     Centers had implemented cloud services. In addition, only 3 of 15 NASA organizations
     surveyed indicated that coordination with the Agency OCIO was required before moving
     systems and data into public clouds. We attribute this to NASA’s failure to effectively
     communicate to Centers’ their responsibility for coordinating with the Agency OCIO
     when acquiring cloud-computing services.

     We also found that the Agency OCIO was slow to establish an Agency cloud-computing
     strategy or guidelines for evaluating which NASA systems and data are suitable for
     transfer to a public cloud. Although such efforts are under development and include a
     framework for Agency programs to securely and efficiently use public cloud
     environments, NASA does not expect these initiatives to be fully developed until fiscal
     year 2014. In the meantime, moving systems and data into a public cloud without a plan
     or effective oversight can result in deployment of services that fail to meet key business
     or IT security requirements, which in turn can lead to loss of availability, integrity, and
     confidentiality of systems and data.


NASA’s Risk Management Practices for Acquiring and Securing
 Public Cloud-Computing Services were Ineffective

     According to NIST, assessing and managing the risks of transferring systems and data to
     a public cloud poses a challenge because the computing environment is under the control
     of the cloud provider. Accordingly, effective risk mitigation in this context requires
     developing contracts that address business and security risks unique to cloud-computing
     environments. Specifically, contracts with cloud service providers should contain clauses
     explaining how contractor performance will be measured, reported, and enforced and
     specify how Federal privacy, litigation discovery, and data retention and destruction
     requirements will be met. In addition, contracts should prescribe how cloud providers
     will perform such important IT security activities as incident detection and require that
     providers’ IT security programs periodically be evaluated and certified by an independent
     third party. Finally, attention to the roles and responsibilities of the Agency, the cloud
     provider, and the cloud broker is also required to drive contractor performance and ensure
     Agency systems and data are adequately secured.

     Specifications for public cloud services are generally called service agreements or service
     contracts. A service contract defines the terms and conditions for access and use of the
     services offered by the cloud provider and establishes the period of service, conditions for


10                                                                           REPORT NO. IG-13-021
RESULTS



  termination, and disposition of data (e.g., preservation period) upon contract termination.
  Typically, the complete terms and conditions for a cloud service contract are contained in
  multiple documents, including a service level agreement and privacy and acceptable use
  policies.

  NIST has identified two types of cloud-computing service contracts: predefined,
  nonnegotiable contracts and negotiated contracts. Under a predefined contract, the
  contract terms are prescribed by the cloud provider. As such, these contracts typically do
  not impose requirements on the provider beyond meeting a base level of service and
  availability. Nor do they address Federal IT security, privacy, data production, or
  retention and destruction requirements. Furthermore, the provider is often empowered to
  modify the contract unilaterally without notifying the customer. Negotiated service
  contracts are more like traditional outsourcing contracts for IT services. In these
  contracts, terms can be tailored to address an agency’s requirements for tracking and
  reporting service effectiveness, prescribe technical controls such as incident detection and
  handling, require compliance with laws and regulations and the use of validated products
  meeting national or international standards, and include data ownership rights.

  As a best practice, the Federal Chief Information Officer (CIO) and Chief Acquisition
  Officer Councils recommend that contracts for cloud services clearly define how
  performance is guaranteed (such as response time, resolution or mitigation time, and
  availability) and require providers to monitor their service levels and provide timely
  reporting of failures to meet service levels. Moreover, contracts should include
  enforcement mechanisms that prescribe penalties when service levels are not met.

  To determine whether the Agency had implemented effective risk mitigation measures,
  we reviewed NASA’s contracts with providers of public cloud-computing services.
  Specifically, we examined whether the contracts met best practices for acquiring cloud
  services as recommended by the Federal CIO and Chief Acquisition Officer Councils, as
  well as practices identified in FedRAMP.12 For example, we evaluated if the contracts
  specified the roles and responsibilities of the parties and how contractor performance
  would be measured, reported, and enforced. We also assessed whether the contracts
  addressed Federal privacy, discovery, and data retention and destruction requirements.
  Finally, we determined if the service providers or brokers adequately addressed key IT
  security measures, such as incident detection and handling practices, and whether the
  providers’ IT security programs had been independently evaluated and certified. The
  results of our review are summarized in Table 1.

  For the five NASA cloud-computing contracts we reviewed, three were for cloud services
  categorized as low-impact services and two were for moderate-impact services. NASA
  accepted the cloud providers’ standard service contract for the three low-impact and one
  of the moderate-impact cloud services. For the other moderate-impact cloud service,
  which hosts more than 100 internal and external Agency websites, NASA negotiated a
  12
       FedRAMP, “Creating Effective Cloud-Computing Contracts for the Federal Government: Best Practices
       for Acquiring IT as a Service,” (February 2012).



REPORT NO. IG-13-021                                                                                       11
                                                                                                          RESULTS



     contract with eTouch, a cloud-computing broker, to manage service delivery and help
     ensure IT security and privacy requirements were met.

     As the table below indicates, none of the five contracts came close to meeting
     recommended best practices. The standard contracts failed to include Federal privacy, IT
     security, or records management requirements and the individualized service contract
     failed to address many of the best practices discussed earlier. As a result, the NASA
     systems and data covered by these five contracts are at risk of compromise, which could
     adversely affect Agency operations or result in the loss of data. In addition, because none
     of the contracts specified how a provider’s performance would be measured, reported, or
     enforced, NASA has no way to ensure adequate service levels are met, increasing the risk
     that Government funds could be misspent.

             Table: Review of Contracts with NASA’s Cloud-Computing Service Providers

      Contract Has             Contract 1        Contract 2        Contract 3          Contract 4   Contract 5

      Defined roles and        No                No                No                  No           No
      responsibilities of
      parties

      Guaranteed system        Yes               Yes               No                  No           Yes
      availability level

      Reporting of service     No                No                No                  No           No
      level metrics

      Penalties for not        No                Yes               No                  No           No
      meeting service
      levels

      E-discovery              No                No                No                  No           No
      requirements

      Data retention and       No                No                No                  No           No
      destruction policies

      Data privacy             No                No                No                  No           No
      requirements

      Defined incident         Yes               No                No                  No           Yes
      handling practices

      Third party              No                Yes               No                  No           Yes
      certification of IT
      security program

     Source: Office of Inspector General analysis of NASA cloud-computing contracts.




12                                                                                            REPORT NO. IG-13-021
RESULTS



Moderate-Impact Cloud Service Failed to Meet Key IT Security
 Requirements

  As part of this audit, we conducted a detailed security review of the moderate-impact
  systems for which NASA is using a public cloud environment, namely internal and
  external NASA web portals managed by eTouch and NSSC’s Online Information Center
  hosted by RightNow, a division of Oracle Corporation. We focused on these systems
  because under NIST guidelines a security breach of a moderate-impact system could have
  serious adverse effects on the Agency. As part of our review, we assessed whether
  eTouch and RightNow met Federal and Agency certification and accreditation
  requirements. The certification and accreditation process is a risk management practice
  that enables managers to make informed decisions on the operation of IT systems or
  services. For example, by certifying and accrediting an IT system, management accepts
  responsibility for its security and is fully accountable for any adverse impacts to the
  Agency if a breach of security occurs. Moreover, according to Federal and Agency IT
  security requirements, systems must be certified and accredited before they are placed
  into operation and allowed to store and process data.

  Although the service provider is responsible for meeting certification and accreditation
  requirements, NASA is responsible for ensuring that the service provider conducts the
  certification and accreditation process in accordance with Federal and Agency guidance.

  We reviewed documentation provided by eTouch and RightNow, including systems
  security and contingency plans, authorization to operate the system, and the results of
  annual system control tests. We found that NASA’s internal and external portal, which
  includes more than 100 websites, was operating without system security or contingency
  plans and with an operating authorization that expired in 2010. Even more troubling, a
  test of security controls on the IT services provided by the NASA Portal had never been
  undertaken to determine whether the system’s controls were implemented correctly,
  operating as intended, and producing the desired result of securing the system and its
  data. These shortcomings occurred because NASA failed to adequately oversee eTouch
  to ensure that Federal and Agency IT security requirements were met. As noted below,
  NASA has replaced eTouch and implemented a contract with InfoZen, which addresses
  the IT security shortcomings, we identified. The other moderate-impact system, NSSC’s
  Online Information Center operated by RightNow, met Federal and Agency IT security
  requirements.


NASA’s Contract for Acquiring Cloud-Computing Services Meets
 Recommended Best Practices but NASA has Not Leveraged Its
 use Agency-wide

  In December 2012, the Agency OCIO signed the NASA Web Enterprise Services
  Technology (WestPrime) contract with InfoZen. Under the WestPrime contract, InfoZen
  hosts more than 100 internal and external NASA websites and manages NASA’s public


REPORT NO. IG-13-021                                                                         13
                                                                                          RESULTS



     Internet portal. The WestPrime contract may be used to acquire web-based, cloud-
     computing services for systems having an IT security categorization rated as low or
     moderate impact. However, NASA has not leveraged this contract by requiring that all
     Agency organizations seeking to transfer systems and data to a public cloud use
     WestPrime. Nor has the Agency required that organizations use contracts with similar
     FedRAMP-compliant terms.

     We found that the WestPrime contract includes the recommended best practices endorsed
     by the Federal CIO and Chief Acquisition Officer Councils. For example, we found that
     the contract specifies the respective roles and responsibilities of NASA, the cloud broker,
     and the cloud service providers. In addition, the contract contains standards for
     contractor performance, including how performance will be measured, reported, and
     enforced and addresses Federal privacy, discovery, data retention and destruction
     requirements, and incident detection and handling practices. Importantly, the contract
     also requires the broker and cloud providers to abide by FedRAMP security
     requirements. For example, the broker and all cloud provider IT security programs must
     be independently evaluated and certified in accordance with FedRAMP. The broker is
     also required to ensure any updates, testing, and support to the cloud environments follow
     FedRAMP; ensure protection and defense of cloud systems from recurring security
     threats and real-time vulnerabilities; and provide comprehensive auditing and appropriate
     patch management that adheres to FedRAMP. Finally, the contract requires semiannual
     reports to the Agency showing continuous monitoring of the broker and cloud providers’
     FedRAMP certifications and includes penalties for failing to meet these metrics.


NASA Satisfied Major Requirements of Cloud First Initiative

     We found that NASA satisfied the requirement of OMB’s Cloud First initiative to move
     several services to the cloud. Specifically, the Agency OCIO, Johnson, JPL, Marshall,
     and the NSSC each moved at least one IT service to a public cloud by December 2011,
     and the Agency OCIO, JPL, and Marshall each moved at least one additional IT service
     to a public cloud by June 2012. In addition, the Kennedy Space Center and Langley
     Research Center are evaluating public cloud services for office automation and scientific
     computing. Examples of the types of services NASA organizations have moved to the
     cloud include high-capacity computation and data storage to support climate modeling
     and content management for more than 100 internal and public-facing Agency websites,
     including NASA’s public web portal www.nasa.gov.


Conclusion

     At the time of our audit, five NASA organizations had implemented cloud services and
     two other Centers were exploring how to leverage cloud technologies to increase
     operational efficiencies. Moreover, NASA projects significant increases in cloud
     deployments in the next 5 years when up to 75 percent of new IT programs could begin


14                                                                          REPORT NO. IG-13-021
RESULTS



  in the cloud and up to 40 percent of legacy systems could be moved to the cloud. As
  NASA expands its use of public cloud services, it is imperative that the Agency
  strengthen its governance and risk management practices to mitigate the chance that
  Agency operations may be disrupted, data lost, or public funds misused. Moreover,
  improved coordination is needed between the Agency OCIO and NASA Centers to
  ensure unapproved and unsecured cloud services are not implemented, cloud-computing
  contracts incorporate best practices, and all FedRAMP requirements are met.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To strengthen NASA’s IT governance practices with respect to cloud computing, mitigate
business and IT security risks, and improve contractor oversight, we recommend that the
Agency CIO:

Recommendation 1. Establish a cloud-computing program management office with
authority to promulgate cloud-computing strategy and related standards and approve,
coordinate, and oversee Agency-wide acquisition of cloud-computing services.

  Management’s Response. The Agency CIO concurred with our recommendation stating
  that in August 2011, his office established the Computing Services Service Office
  (CSSO) as the NASA entity responsible for all computing related services including data
  center consolidation and cloud computing. Moreover, the CSSO is also responsible for
  establishing an enterprise management approach for cloud computing and developing
  processes to ensure Agency-wide FedRAMP compliance. Further, by September 30,
  2014, the Agency CIO will:

         revise and strengthen the CSSO’s charter based on our audit findings and
          recommendations,

         formally communicate to all NASA organizations that the CSSO is the Agency’s
          focal point for cloud computing and FedRAMP, and

         develop and publish guidance on use and acquisition of cloud-computing services
          at NASA.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.




REPORT NO. IG-13-021                                                                        15
                                                                                        RESULTS



Recommendation 2. Require that NASA organizations use the WestPrime contract or a
contract that helps ensure risks are mitigated and FedRAMP requirements are met when
acquiring cloud-computing services.

     Management’s Response. The Agency CIO concurred with our recommendation and
     stated that by September 30, 2014, he would:

           require that all NASA organizations use the WestPrime contract for purchasing
            cloud-based web services,

           establish Agency-wide vehicles (contracts) for obtaining commercial cloud
            services with selected providers and require all NASA organizations use these
            vehicles when purchasing commercial cloud services, and

           publish policies and guidelines to be followed Agency-wide when acquiring
            commercial cloud services.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.

Recommendation 3. Ensure any movement of moderate- or high-impact NASA systems to
public clouds conforms with Federal and Agency IT security requirements.

     Management’s Response. The Agency CIO concurred with our recommendation and
     stated that by September 30, 2014, OCIO would establish policies and procedures
     requiring NASA organizations to register all purchases of cloud services with the CSSO
     to ensure that all IT security requirements are met.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.


To ensure that NASA’s existing cloud-computing services meet FedRAMP requirements,
we recommend that the Agency CIO:

Recommendation 4. Direct all NASA CIOs to review FedRAMP and take necessary action
to ensure their existing and planned cloud-computing services meet FedRAMP
requirements.

     Management’s Response. The Agency CIO concurred with our recommendation and
     stated that by September 30, 2014, he would formalize policies and procedures for
     complying with FedRAMP and require that NASA organizations seeking to acquire
     cloud services work with CSSO’s FedRAMP team to ensure that all FedRAMP
     requirements are met.



16                                                                        REPORT NO. IG-13-021
RESULTS



  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.


To remedy IT security risks associated with the moderate-impact system (managed by
eTouch) we identified as operating without system security or contingency plans, we
recommend that the system owner:

Recommendation 5. Require the cloud service provider or broker to develop NIST-
compliant security and contingency plans and conduct a test of the system’s security
controls.

  Management’s Response. The Agency CIO concurred with our recommendation and
  stated that NASA’s web services contract with cloud-computing provider eTouch has
  been terminated and that all legacy eTouch infrastructure will be shut down by
  September 30, 2013. Further, he will ensure that the new system (managed by InfoZen)
  meets Federal and Agency IT security requirements.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.

Recommendation 6. Ensure that the responsible Information Security Officer review IT
security documentation and control tests and authorize the system for operation, as
appropriate.

  Management’s Response. The Agency CIO concurred with our recommendation and
  again stated that NASA’s web services contract with eTouch has been terminated and
  that all legacy eTouch infrastructure will be shut down by September 30, 2013. Further,
  the CIO will ensure that the new system meets Federal and Agency IT security
  requirements.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.




REPORT NO. IG-13-021                                                                        17
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

  We performed this audit from June 2012 through June 2013 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  In order to determine the adequacy of the Agency’s governance model and risk
  management practices, we selected samples of cloud-computing services for detailed
  review. To determine the Agency’s portfolio of cloud-computing services, we sent
  questionnaires to the Center, Headquarters, NSSC, and Mission Directorate CIOs. Based
  on the results of the surveys, we identified all projects currently hosting data with third-
  party cloud providers for our governance objective. For these projects, we interviewed
  NASA and contractor staff responsible for the projects and reviewed the contracts and
  service level agreements to determine whether they clearly defined the responsibilities of
  the parties; defined performance in clear terms; and stated how performance would be
  measured, reported, and enforced. We also assessed whether the contracts addressed
  Federal privacy, E-discovery (granting access to facilities for audit and investigative
  purposes), and data retention and destruction requirements. In addition, we selected all
  moderate or higher cloud services the Agency has contracted from a cloud service
  provider for detailed review. We interviewed NASA and contractor staff and obtained
  and reviewed the following documents to determine whether they met Federal and
  Agency IT security requirements, including incident detection and handling and third
  party certification of their IT security programs:

         System Security plan,

         most recent test of selected security controls,

         contingency plan,

         authorization to operate,

         cloud provider computer security incident handling policies and procedures, and

         independent assessment reports or certification of the cloud services the Agency
          receives from public cloud service providers.




REPORT NO. IG-13-021                                                                             19
                                                                                    APPENDIX A



     Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
     course of our audit work:

           Federal Information Security Management Act (FISMA) of 2002

           Office of Management and Budget Appendix III to OMB Circular No. A-130

           NIST Special Publication 800-37, Revision 1, “Guide for Applying the Risk
            Management Framework to Federal Information Systems,” February 2010

           NIST Special Publication 800-53A, Revision 1, “Guide for Assessing the Security
            Controls in Federal Information Systems and Organizations,” June 2010

           NIST Special Publication 800-61, Revision 2, “Computer Security Incident
            Handling Guide,” August 2012

           NPR 2810.1A, “Security of Information Technology,” May 19, 2011

           IT Security Handbook 2810.02-02, “Security Assessment and Authorization:
            Information System Certification and Accreditation Process for FIPS 199
            Moderate & High Systems,” November 10, 2010

           IT Security Handbook 2810.02-04, “Security Assessment and Authorization:
            Continuous Monitoring - Annual Security Control Assessments,”
            November 10, 2010

           IT Security Handbook 2810.02-05, “Security Assessment and Authorization:
            External Information Systems,” November 8, 2010

           IT Security Handbook 2810.09-02, “Incident Response and Management: NASA
            Information Security Incident Management,” August 24, 2011

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.


Review of Internal Controls

     We reviewed internal controls related to the oversight of cloud-computing providers and
     security of Agency cloud-computing technologies. This included determining whether
     NASA has policies and procedures in place specific to cloud-computing technologies.




20                                                                        REPORT NO. IG-13-021
APPENDIX A



Prior Coverage

  During the last 5 years, the Government Accountability Office, Department of Energy
  Office of Inspector General, and Social Security Administration Office of Inspector
  General have issued six reports of particular relevance to the subject of this report.
  Unrestricted reports can be accessed over the Internet at http://www.gao.gov,
  http://energy.gov/ig/office-inspector-general, and http://oig.ssa.gov/, respectively.

  Government Accountability Office

  “Cybersecurity: A Better Defined and Implemented National Strategy Is Needed to
  Address Persistent Challenges” (GAO-13-462T, March 7, 2013)

  “Information Technology Reform: Progress Made but Future Cloud Computing Efforts
  Should be Better Planned” (GAO-12-756, July 2012)

  “Information Security: Additional Guidance Needed to Address Cloud Computing
  Concerns” (GAO-12-130T, October 6, 2011)

  “Information Security: Governmentwide Guidance Needed to Assist Agencies in
  Implementing Cloud Computing” (GAO-10-855T, July 1, 2010)

  Department of Energy Office of Inspector General

  “Department’s Management of Cloud Computing Services” (OAS-RA-L-11-06, April
  2011)

  Social Security Administration Office of Inspector General

  “Cloud Computing at the Social Security Administration” (A-14-12-11226, September
  2012)




REPORT NO. IG-13-021                                                                       21
                      APPENDIX B




     MANAGEMENT COMMENTS




22            REPORT NO. IG-13-021
APPENDIX B




REPORT NO. IG-13-021   23
             APPENDIX B




24   REPORT NO. IG-13-021
APPENDIX B




REPORT NO. IG-13-021   25
                                                                              APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




26                                                                    REPORT NO. IG-13-021
Major Contributors to the Report:
   Wen Song, Director Information Technology Audit
   Jefferson Gilkeson, Program Manager
   Morgan Reynolds, Audit Team Lead




REPORT NO. IG-13-021                                 27
                                                                                    JULY 29, 2013
                                                                   REPORT No. IG-13-021




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
